                                   EVALUATION




 U.S. DEPARTMENT OF THE INTERIOR’S
 OFFSHORE RENEWABLE ENERGY
 PROGRAM




Report No.: CR-EV-BOEM-0001-2013   September 2013
             OFFICE OF
             INSPECTOR GENERAL
             U.S.DEPARTMENT OFTHE INTERIOR


                                                                             SEP _2 5 2013
Memorandum

To:           RheaS. Suh
              Assistant Secretary for Policy, Management and Budget

              Tommy P. Beaudreau
              Acting Assistant Secretary for Land and Minerals Management
              Director, Bureau of Ocean Energy Management

              Gregory J. Gould
              Director, Office ofNatural Resources Revenue

              Brian M. Salerno
              Director, Bureau of Safety and Environmental Enforcement

From:         Mary L. Kendall   ~~             {) . n
              Deputy Inspector General ~ ,_ ~ ~~

Subject:      Final Evaluation Report- U.S. Department of the Interior's Offshore Renewable
              Energy Program
              Report No. CR-EV-BOEM-0001-2013

        This memorandum transmits the findings of our evaluation of the U.S. Department of the
Interior's (DOl) Offshore Renewable Energy Program. We reviewed DOl's ongoing and
proposed offshore renewable energy projects, budget and resource planning, process for
establishing and collecting renewable energy fees, and inspection and enforcement planning.

       We found that DOl does not have updated regulations or detailed standard operating
procedures for the Program's internal processes. We also found that Secretarial Order 3299,
which initially placed the Program's inspection and enforcement function within the Bureau of
Safety and Environmental Enforcement (BSEE) to ensure separation of duties between the
Bureau of Ocean Energy Management (BOEM) and BSEE, was later amended to place the
Program's inspection and enforcement activities within BOEM, thereby eliminating BSEE's
independent oversight role.

        We made four recommendations to enhance DOl's management of the Program. DOl has
an opportunity to improve management oversight and accountability by updating its regulations,
documenting policies and procedures, and ensuring that the Program has the proper separation of
duties.




                              Office of Inspector General I Washington, DC
       Based on management’s responses to the draft report (see Appendices 2 and 3), we
consider recommendations 1, 2, and 3 resolved but not implemented, and we will refer these
recommendations to the Assistant Secretary for Policy, Management and Budget to track
implementation (see Appendix 4).

        We consider recommendation 4 unresolved because the Acting Assistant Secretary for
Land and Minerals Management partially concurred with our initial recommendation in the draft
report (see Appendix 4). We revised the recommendation to direct BOEM and BSEE to
collaborate on developing the inspection and enforcement function within BSEE. We also
modified recommendation 4 by directing it to the Assistant Secretary for Policy, Management
and Budget instead of the Acting Assistant Secretary for Land and Minerals Management to
avoid a potential conflict of interest because the Acting Assistant Secretary is also the BOEM
Director. We request that the Assistant Secretary for Policy, Management and Budget respond to
recommendation 4.

        Please provide us with your written response within 30 days. The response should
provide information on actions taken or planned to address recommendation 4, as well as target
dates and titles of officials responsible for implementation. Please address your response to:

                      Kimberly Elmore
                      Assistant Inspector General for Audits, Inspections, and Evaluations
                      U.S. Department of the Interior
                      Office of Inspector General
                      Mail Stop 4428
                      1849 C Street, NW.
                      Washington, DC 20240

      The legislation creating the Office of Inspector General requires that we report to
Congress semiannually on all audit, evaluation, and inspection reports issued, actions taken to
implement our recommendations, and recommendations that have not been implemented.

      If you have any questions regarding this report, please do not hesitate to contact me at
202-208-5745.




                                                2
Table of Contents
Results in Brief ....................................................................................................... 1
Introduction ............................................................................................................. 2
   Objective ............................................................................................................. 2
   Background ......................................................................................................... 2
Findings................................................................................................................... 6
   Regulations .......................................................................................................... 6
   Standard Operating Procedures ........................................................................... 7
   Inspection and Enforcement ................................................................................ 8
Conclusion and Recommendations ....................................................................... 10
   Conclusion......................................................................................................... 10
   Recommendations Summary............................................................................. 10
Appendix 1: Scope and Methodology................................................................... 13
   Scope ................................................................................................................. 13
   Methodology ..................................................................................................... 13
Appendix 2: The Bureau of Ocean Energy Management’s and the Acting
Assistant Secretary for Land and Minerals Management’s Response .................. 14
Appendix 3: The Office of Natural Resources Revenue’s Response ................... 22
Appendix 4: Status of Recommendations ............................................................. 25
Results in Brief
The U.S. Department of the Interior (DOI) received regulatory authority for
offshore renewable energy from Section 388 of the Energy Policy Act of 2005, 43
U.S.C. § 1337(p)(1)(c). DOI assigned the responsibilities for oversight and
management of the Offshore Renewable Energy Program (Program) to the Bureau
of Ocean Energy Management (BOEM). The Office of Natural Resources
Revenue (ONRR) collects fees and revenues associated with offshore renewable
energy.

To date, BOEM has issued four commercial leases: one off the coast of
Massachusetts to Cape Wind Associates, LLC; one off the coast of Delaware to
Bluewater Wind Delaware, LLC; and two off the coast of Rhode Island and
Massachusetts to Deepwater Wind New England, LLC. Currently, no offshore
wind projects have been constructed. It is anticipated that Cape Wind will begin
construction in 2014.

In our evaluation of the Program, we found that BOEM does not have updated
regulations and detailed standard operating procedures for the Program’s internal
processes. We also found that ONRR has not documented its policies and
procedures for its processes and responsibilities regarding rental payments and
operating fees. In addition, we found that Secretarial Order 3299 was amended to
place the inspection and enforcement activities for renewable energy within
BOEM, as opposed to the Bureau of Safety and Environmental Enforcement,
where it was initially placed to ensure the separation of duties.

We made four recommendations to enhance DOI’s management of the Program.
DOI has an opportunity to improve management oversight and accountability by
updating its regulations, documenting policies and procedures, and ensuring that
the Program has the proper separation of duties.




                                                                                   1
Introduction
Objective
Our objective was to review the effectiveness of the U.S. Department of the
Interior’s (DOI) Offshore Renewable Energy Program (Program). We reviewed
DOI’s ongoing and proposed offshore renewable energy projects, budget and
resource planning, process for establishing renewable energy fees, and inspection
and enforcement program planning (see Appendix 1).

Background
The Federal Government regulates the Outer Continental Shelf (OCS) through the
Outer Continental Shelf Lands Act, 43 U.S.C. §§ 1331 – 56a. Section 388 of the
Energy Policy Act of 2005, 43 U.S.C. § 1337 (p)(1)(c) gave the Secretary of the
Interior authority to grant a lease, easement, or right-of-way (ROW) for activities
on the OCS that produce, transport, or transmit energy from sources other than oil
or gas, including wind, solar, or hydrokinetic energy. Secretarial Order 3299,
Amendment No. 2, dated August 29, 2011, identified the Bureau of Ocean Energy
Management (BOEM) as the entity responsible for managing renewable energy.
BOEM regulates the Program through 30 C.F.R. part 585, “Renewable Energy
and Alternative Uses of Existing Facilities on the Outer Continental Shelf.”

Offshore renewable energy includes three types of sources:

   1. Offshore wind energy: Offshore wind turbines are used in a number of
      countries to harness energy from the air moving over the oceans and
      convert it to electricity. Offshore wind tends to flow at higher sustained
      speeds than onshore wind.
   2. Ocean wave energy (hydrokinetic): Wave power devices extract energy
      from the surface motion of ocean waves. A variety of technologies have
      been proposed to capture that energy, and some designs are undergoing
      demonstration testing.
   3. Ocean current energy (hydrokinetic): Ocean currents contain enormous
      amounts of energy that can be captured and converted to a usable form.
      Currently, the Florida coast has the greatest ocean current energy
      potential. Ocean current energy technology is in an early stage of
      development.

Because offshore wind energy is currently the only type of commercial offshore
renewable energy, we focused our review on this area.

In 2007, BOEM published the “Final Programmatic Environmental Impact
Statement for Alternative Energy Development and Production and Alternate Use
of Facilities on the Outer Continental Shelf.” This document examined the
potential environmental impacts related to renewable energy development on the
OCS for each phase of development.


                                                                                   2
An interim policy for offshore renewable energy was announced by BOEM in
November 2007, before the final regulations were issued in April 2009. The
interim policy allowed for limited leasing and was designed for resource data
collection and technology testing activities. The interim policy leases have a
5-year term and provide no subsequent commercial rights.

Secretarial Order 3299 was issued in 2010 to separate the responsibilities of the
former Minerals Management Service into new management structures intended
to improve management, oversight, and accountability on the OCS and to provide
independent safety and environmental oversight of offshore activities. These new
management structures included BOEM, with responsibility for resource
evaluation, planning, and leasing, and the Bureau of Safety and Environmental
Enforcement (BSEE), with responsibility for inspection and enforcement
activities.

Also in 2010, DOI launched the “Smart from the Start” initiative to expedite
offshore wind energy development off the Atlantic Coast. The initiative facilitates
siting, leasing, and construction of new projects, and accelerates development of
wind energy sources. The initiative aims to identify priority wind energy areas
(WEAs) for potential development and to accelerate the leasing process by 6 to 12
months by eliminating the requirement to issue a second lease notice when there
is only one qualified and interested developer, thus expediting the approval
process.

BOEM, in consultation with intergovernmental State task forces and other
stakeholders, identifies WEAs that appear most suitable for commercial wind
energy activities with the least negative impacts. To date, WEAs have been
identified on the OCS in Rhode Island, Massachusetts, New Jersey, Delaware,
Maryland, and Virginia (see Figure 1). In fiscal years 2013 and 2014, BOEM
expects to identify additional areas in North Carolina and other coastal States.




                                                                                   3
Figure 1. Wind energy areas identified off the Atlantic Coast.

In accordance with the Energy Policy Act of 2005, BOEM issues renewable
energy leases and grants on a competitive basis unless it determines no
competitive interest exists (30 C.F.R. § 585.201). BOEM has issued four
commercial leases:

    •    Cape Cod, MA: BOEM issued the Nation’s first commercial lease to Cape
         Wind Associates, LLC, for the right to construct and operate an offshore
         wind facility in Federal waters. The project area is located on Horseshoe
         Shoal in Nantucket Sound, between Cape Cod, Martha’s Vineyard, and
         Nantucket Island. The project consists of 130 wind turbine generators,
         each rated at 3.6 megawatts per hour, for a total capacity of 468
         megawatts. Cape Wind has an average anticipated output of 183


                                                                                 4
       megawatts, and the wind facility is projected to generate 1,600 gigawatt-
       hours per year. According to BOEM’s Web site, at average expected
       production, Cape Wind could produce enough energy to power tens of
       thousands of homes in Massachusetts.
   •   Delaware: BOEM issued a commercial lease to Bluewater Wind
       Delaware, LLC (a wholly owned subsidiary of NRG Energy, Inc.). This
       96,430-acre lease gives Bluewater Wind Delaware the right to submit one
       or more plans to support the development of an offshore wind facility.
   •   Rhode Island and Massachusetts: In July 2013, BOEM held the first-ever
       competitive lease sale for renewable energy in Federal waters. BOEM
       auctioned a WEA off the coast of Rhode Island and Massachusetts as two
       leases. The leases were awarded to Deepwater Wind New England, LLC.
       The North Lease Area consists of about 97,500 acres and the South Lease
       Area covers about 67,250 acres, totaling 164,750 acres. When built, these
       areas could generate enough combined energy to power more than one
       million homes.

BOEM held another competitive auction for a WEA off the coast of Virginia in
September 2013. This lease has not yet been issued. Future competitive lease
sales are planned for WEAs off the coasts of Maryland, New Jersey, and
Massachusetts during fiscal year 2014. BOEM is also working to facilitate
renewable energy development in areas along the Atlantic coast, the Pacific coast,
and Hawaii.

In addition to issuing leases, BOEM also has the authority to issue ROW grants
that allow developers to build electricity transmission lines. BOEM received a
ROW request for a proposed transmission line running from Virginia to New
York on the Atlantic OCS and has issued a public notice to determine whether
competitive interest exists in moving forward with this project.




                                                                                 5
Findings
We found three areas in our review of the Program in which DOI can improve
oversight. We found that the offshore renewable energy regulations were written
when little was known about offshore renewable energy, which led to gaps and
inconsistencies in the regulations. The Program also operates without written
standard operating procedures (SOPs). We also found that the Program could
better avoid conflict between its energy development and regulatory enforcement
roles by transferring the inspection and enforcement activities to BSEE while
retaining leasing responsibilities in BOEM.

Regulations
During our review, employees expressed concerns about the completeness of
current regulations. For instance, the regulations do not address ROW route
changes. If an applicant is awarded a ROW lease based on a determination of no
competitive interest—meaning no other companies applied for the ROW lease—
and the applicant decides to change the route of the ROW, the regulation does not
address if a new determination of competitive interest is needed. In addition,
BOEM staff raised concerns that the broad requirements for determining if a lease
applicant is technically and financially capable of building and funding an
offshore renewable energy project could later expose BOEM to litigation. For
example, if BOEM qualified a bidder that was not truly technically and
financially capable of sustaining a project, other interested parties could take legal
action against BOEM.

We also identified inconsistencies within Federal regulations, which cause
confusion over whether BOEM or ONRR is the appropriate entity to which
payments should be submitted:

   •   30 C.F.R. § 585.506 states: “If you are generating electricity, you must
       pay ONRR, under the regulations at 30 C.F.R. part 1218, operating fees on
       your commercial lease when you begin commercial generation, as
       described in § 585.503;” but
   •   30 C.F.R. § 585.506(d) states: “You must submit all operating fee
       payments to BOEM in accordance with the provisions under 30 C.F.R.
       1218.51.”

In response to our Notice of Potential Findings and Recommendations (NPFR)
and our draft report, BOEM clarified some of these issues and agreed with our
recommendation to update its regulations (see Appendix 2). The response
indicated that BOEM will move forward with proposing appropriate regulatory
revisions consistent with its regulatory priorities.




                                                                                     6
 Recommendation

 We recommend that BOEM:

    1. Review existing regulations to identify gaps and inconsistencies, and
       make regulatory changes before issues arise.


Standard Operating Procedures
BOEM does not have SOPs establishing the Program’s internal processes,
including—

   •   audit policies, such as verification of the operating fee components—
       specifically the capacity factor and power price—and review of payments
       for accuracy;
   •   inspection policies and checklists;
   •   auction policies;
   •   bonding policies establishing BOEM’s determination of bond amounts
       once construction and operations plans are approved; or
   •   qualification policies establishing how to determine if a potential lessee is
       technically and financially capable of developing an offshore project.

We understand that SOPs are in development, but BOEM assumes a greater risk
for problems to occur if it continues to operate this program without established
instructions and guidelines.

In addition, we found that ONRR does not have written policies or procedures
establishing its processes for receiving and reviewing rental payments and
operating fees. Written policies and procedures ensure that proper internal
controls are in place and that subjective decisions are not made on an ad hoc
basis.

In response to our NPFR and draft report, BOEM and ONRR responded that they
concurred with our findings and recommendations on these issues (see
Appendices 2 and 3). BOEM said it is developing a schedule for creating,
distributing, reviewing, and updating SOPs by fiscal year 2014. ONRR said it will
refine the established processes and document detailed procedures for renewable
energy projects that will cover coordination with BOEM and the receipt and
review of rental payments and operating fees by the second quarter of fiscal year
2014.




                                                                                    7
    Recommendations

    We recommend that BOEM:

      2. Develop and implement detailed SOPs for the Program’s internal
         processes in order to facilitate good management practices and strong
         internal controls.

    We recommend that ONRR:

      3. Develop and implement detailed policies and procedures for its
         processes and responsibilities related to offshore renewable energy
         projects, including its coordination with BOEM and the receipt and
         review of rental payments and operating fees.


Inspection and Enforcement
Regulations at 30 C.F.R. § 585.102(a)(12), as well as Secretarial Order 3299 (as
amended), state that BOEM is responsible for the inspection and enforcement of
offshore renewable energy facilities. We received conflicting information,
however, regarding which departmental entity will perform the inspection and
enforcement activities when projects are under construction and when they
become operational.

Secretarial Order 3299 directed the establishment of BOEM and BSEE as
separate entities. As then Secretary of the Interior Ken Salazar later testified,
BOEM was charged with responsibility to “ensure the environmentally
responsible and appropriate development of the Outer Continental Shelf for both
conventional and renewable energy in a predictable and effective manner.” He
continued that BSEE works to “ensure that all production operations are safe and
that potential negative impacts on marine ecosystems and coastal communities are
appropriately considered in each phase of development and mitigated to the
fullest possible extent through its independent regulation, oversight, and
enforcement powers [emphasis added].” 1

The Order was amended in 2011 to postpone the transfer of inspection and
enforcement functions to BSEE for the renewable energy program “until such
time that the Assistant Secretary – Land and Minerals Management determines
that an increase in activity justifies” the realignment. No criteria were given for
this determination to be made.


1
 Statement of Ken Salazar, Secretary of the Interior, Before the Committee on Energy and Natural Resources
United States Senate on Recent Departmental Actions To Improve Safety and Accountability on the Outer
Continental Shelf, dated June 9, 2010.




                                                                                                        8
In response to our NPFR and draft report recommending that BOEM transfer the
inspection and enforcement function to BSEE, BOEM stated that a consultant had
reviewed BOEM’s renewable energy program and recommended that permitting
and inspection and enforcement activities initially reside as a function within
BOEM (see Appendix 2). The consulting firm reasoned that in the near term,
keeping the tasks of reviewing project plans and planning for the permitting and
inspection functions within BOEM would allow for efficient and effective
decisionmaking in the early policy stages. The contractor concluded that the
permitting and inspection and enforcement engineers could be transferred to
BSEE once BOEM has two or three projects near construction stage, likely after
2020.

BOEM anticipates that construction on Cape Wind will start in 2014. We believe
that allowing the bureau responsible for planning and leasing renewable energy
projects to also formulate the policies for the inspection and enforcement is
contrary to the independent oversight and separation of duties envisioned in
Secretarial Order 3299 as originally issued. We also believe that it would be more
efficient and effective to have BSEE—which will ultimately be implementing the
inspection and enforcement function—develop the policies and procedures as
opposed to BOEM.

Developing this function in BSEE will allow BSEE to refine and finalize its
process once the first project comes online and before multiple other projects near
the start of construction, better preparing BSEE to efficiently perform its
inspection and enforcement duties.

 Recommendation

 We recommend that the Assistant Secretary for Policy, Management and
 Budget:

    4. Direct BOEM and BSEE to collaborate on developing the inspection
       and enforcement function within BSEE to ensure an appropriate
       separation of duties.




                                                                                  9
Conclusion and Recommendations
Conclusion
With the advancement of offshore wind leasing and the anticipated construction
of the first full offshore wind project in 2014, DOI should strengthen its
management of all phases of renewable energy development. DOI has an
opportunity to strengthen and improve its Offshore Renewable Energy Program
by finalizing regulations, completing and documenting internal procedures, and
transferring the responsibility for inspection and enforcement activities to BSEE.

Recommendations Summary
We recommend that BOEM:

   1. Review existing regulations to identify gaps and inconsistencies, and make
      regulatory changes before issues arise.

       BOEM Response: BOEM concurred with this recommendation and stated
       that it will continue to move forward with proposing appropriate
       regulatory revisions consistent with the Bureau’s regulatory priorities and
       experience with the renewable energy development under the existing
       regulations. BOEM said it is in the process of developing a list of potential
       regulatory changes and anticipates that updating the regulations will be a
       multiyear effort. BOEM also said it will develop a 3-year offshore
       renewable energy regulatory schedule and promulgate regulations.

       OIG Reply: We consider this recommendation resolved but not
       implemented. We will refer the recommendation to the Assistant Secretary
       for Policy, Management and Budget for implementation tracking.

   2. Develop and implement detailed SOPs for the Program’s internal
      processes in order to facilitate good management practices and strong
      internal controls.

       BOEM Response: BOEM concurred with this recommendation and
       agreed that detailed SOPs covering BOEM’s internal processes are
       important to the development of the offshore renewable energy program.
       BOEM stated that it is taking a strategic and practical approach to
       evaluating and updating its current SOPs and creating and implementing
       new ones. The Bureau also said it is developing a schedule for creating,
       distributing, reviewing, and updating SOPs.

       OIG Reply: We consider this recommendation resolved but not
       implemented. We will refer the recommendation to the Assistant Secretary
       for Policy, Management and Budget for implementation tracking.



                                                                                 10
We recommend that ONRR:

   3. Develop and implement detailed policies and procedures for its processes
      and responsibilities related to offshore renewable energy projects,
      including its coordination with BOEM and the receipt and review of rental
      payments and operating fees.

       ONRR Response: ONRR concurred with this recommendation, stating
       that ONRR, BOEM, and BSEE are finalizing a memorandum of
       understanding that will identify the responsibilities of each organization.
       ONRR stated that ONRR and BOEM will collaborate to define processes
       and communications as the Program evolves. ONRR also stated that it will
       refine the established processes and document detailed procedures that
       will cover coordination with BOEM and the receipt and review of rental
       payments and operating fees for renewable energy projects.

       OIG Reply: We consider this recommendation resolved but not
       implemented. We will refer the recommendation to the Assistant Secretary
       for Policy, Management and Budget for implementation tracking.

We recommend that the Assistant Secretary for Policy, Management and Budget:

   4. Direct BOEM and BSEE to collaborate on developing the inspection and
      enforcement function within BSEE to ensure an appropriate separation of
      duties.

       Acting Assistant Secretary for Land and Minerals Management
       Response: The Acting Assistant Secretary partially concurred with the
       initial recommendation in our draft report to “expedite the transfer of the
       inspection and enforcement responsibilities for offshore renewable energy
       from BOEM to BSEE to ensure an appropriate separation of duties in the
       development of inspection protocols and plans for monitoring industry
       activities and regulatory compliance,” reasoning that DOI decided to
       initially house all of the offshore renewable energy functions within
       BOEM to allow the early stages of the Program to grow in a coherent,
       efficient, and comprehensive manner. The Acting Assistant Secretary
       stated that the Office of Renewable Energy Programs in BOEM was
       designed to formulate national strategy and develop policies and practices,
       as well as manage offshore renewable energy activities. The Acting
       Assistant Secretary said this role would enhance DOI’s ability to facilitate
       efficient and environmentally sound renewable energy development,
       would best advance DOI’s mission and strategic goals, and would be
       responsive to the realities of an emerging industry and regulatory regime.
       According to the Acting Assistant Secretary, the anticipated appropriate
       time to transfer inspections responsibilities from BOEM to BSEE will
       likely occur sooner than 2020, but the Acting Assistant Secretary believes



                                                                                11
that the transfer should be properly planned and budgeted for in the
context of the pace of development and that transferring these
responsibilities prematurely would be inefficient and ineffective.

OIG Reply: We consider this recommendation unresolved. We believe
that allowing the bureau that leases WEAs to also formulate policies for
permitting, inspection, and enforcement eliminates independent oversight
and separation of duties. We also believe the bureau responsible for
permitting, inspection, and enforcement should formulate the policies and
procedures that it will be responsible for implementing and enforcing. The
expeditious transfer of these functions to BSEE should enhance DOI’s
abilities to ensure that the renewable energy program has sufficient focus
and resources to properly plan and budget for offshore renewable energy
facility development.

We modified this recommendation to direct BOEM and BSEE to
collaborate on developing the inspection and enforcement function within
BSEE to ensure an appropriate separation of duties. We also revised the
recommendation by directing it instead to the Assistant Secretary for
Policy, Management and Budget to avoid the appearance of a potential
conflict of interest, since the Acting Assistant Secretary for Land and
Minerals Management is also the BOEM Director.




                                                                        12
Appendix 1: Scope and Methodology
Scope
We focused on the U.S. Department of Interior’s Offshore Renewable Energy
Program (Program), including its—

   •   regulations, policy, and guidance;
   •   requests for interest, auction documents, and other project related
       information;
   •   planning and funding for the leasing process, environmental reviews,
       rights-of-way issuance, and inspection and enforcement;
   •   coordination of renewable energy projects with other agencies or task
       forces; and
   •   processes for establishing fees.

We conducted this evaluation in accordance with the Quality Standards for
Inspection and Evaluation as put forth by the Council of Inspectors General on
Integrity and Efficiency. We believe that the work we performed provides a
reasonable basis for our conclusions and recommendations.

Methodology
During our evaluation of the Program, we interviewed 38 employees from 8
different offices in the Bureau of Ocean Energy Management (BOEM), the Office
of Natural Resources Revenue (ONRR), and the Bureau of Safety and
Environmental Enforcement (BSEE). We also reviewed regulations, guidelines,
and other information regarding the Program.

We interviewed employees from the following offices:

   •   BOEM Office of Renewable Energy Programs (OREP), Program Office,
       Herndon, VA;
   •   OREP Environmental Branch, Herndon, VA;
   •   OREP Projects and Coordination Branch, Herndon, VA;
   •   BOEM Economics Division, Herndon, VA;
   •   BSEE, Herndon, VA;
   •   ONRR, Washington, DC;
   •   ONRR, Lakewood, CO; and
   •   BOEM Pacific Coast Region, Camarillo, CA.




                                                                                 13
Appendix 2: The Bureau of Ocean
Energy Management’s and the Acting
Assistant Secretary for Land and
Minerals Management’s Response
The Bureau of Ocean Energy Management’s and the Acting Assistant Secretary
for Land and Minerals Management’s response follows on page 15.




                                                                             14
               United States Depart1nent of the Interior
                      BUREA U OF OCE;\N ENER GY i\lAN ,.\GE ~.;lENT
                              WA SIII NCJTON . DC 20240-000 I


                                        AUG 27 2013




Memorandum

To:          Assistant Inspector General for Audit

From:

              Director- Bureau of Ocean Energy Management

Subject:      Response to Draft Evaluation Report on Offshore Renewable Energy Program
              (CR-EV -BOEM-0001-2012)

Thank you for the opportunity to review your Draft Evaluation Report entitled, US. Department
ofthe Interior's Offshore Renewable Energy Program (CR-EV-BOEM-0001-2012). This
response will address the recommendations directed to the Bureau of Ocean Energy Management
(BOEM) and the Assistant Secretary- Land and Minerals Management. The Office of Natural
Resources Revenue (ONRR) will respond separately to Recommendation 3, which is directed to
ONRR. We concur with Recommendations 1 and 2 and partially concur with Recommendation
4.

As a part of the President's "All of the Above" energy strategy and call for action to address
climate change, we are working to implement the Department's "Smart from the Start" initiative
to facilitate offshore wind energy development and the priority goal for promoting renewable
energy. As the Office of the Inspector General (OIG) noted, BOEM issued the first commercial
lease for wind energy to the Cape Wind Project in 2010, construction related to which is
expected to begin in 2014. In November 2012, BOEM issued a commercial lease for wind
energy offthe coast of Delaware to Bluewater Wind Delaware, LLC. In July 2013, BOEM held
the first competitive auction for wind energy offshore Rhode Island and Massachusetts. BOEM
will hold another competitive lease sale in September 2013 for offshore Virginia. Future
competitive lease sales are planned for wind energy areas off the coasts of Maryland, New
Jersey, and Massachusetts during the coming year. In addition, BOEM is working to facilitate



                                                                                        15
renewable energy development in other areas along the Atlantic and off the Pacific coast and
Hawaii, and has established task forces in 12 states to identify areas suitable for offshore wind
and marine hydrokinetic energy development.

Attached is our response to Recommendations 1, 2, and 4, identifying the actions taken or
planned, target dates, and the official responsible for each recommendation.

Attachment




                                                                                             16
                                                                                       Attachment

Recommendation No.1: Review existing regulations to identify gaps and inconsistencies, and
make regulatory changes before issues arise.

Response: Concur

BOEM agrees with this recommendation and will continue to move forward with proposing
appropriate regulatory revisions consistent with the Bureau's regulatory priorities and experience
with the renewable energy development under the existing regulations. BOEM developed the
regulations at 30 CFR Part 585 with the goal of providing sufficient flexibility for a nascent U.S .
offshore renewable energy industry, so some degree of regulatory "gaps" and "inconsistencies"
in the original regulations has always been expected. Additionally, the number of European
commercial-scale offshore wind projects commissioned at the time that the regulations were
being developed was relatively small, thus the experience that BOEM could draw from in
writing the regulations was limited.

BOEM is in the process of finalizing its first significant renewable energy regulatory change
since promulgating the 30 CFR 585 regulations in April 2009. The rulemaking, entitled "Timing
Requirements for the Submission of a Site Assessment Plan (SAP) or General Activities Plan
(GAP) for a Renewable Energy Project on the Outer Continental Shelf (OCS)," changes the
timing requirements for the submission of certain plans that BOEM has found to be unreasonable
based on experience. The rulemaking also alters timing requirements for payments to align with
the system needs of DOl's Office ofNatural Resources Revenue, and fixes a technical error.

 Now that BOEM has completed its first commercial wind lease sale and is on the cusp of holding
 its second, BOEM is reflecting on the successes and challenges of its regulatory planning and
 leasing process, and developing a list of substantive and procedural regulatory amendments to
 this process. In addition, BOEM is using the experience gained through the agency's oversight
 of the proposed Cape Wind project offshore Massachusetts to identify and predict regulatory
 issues with regard to plan approval, post-plan compliance, and engineering report review
 provisions. The effort to identify such issues to improve BOEM's renewable energy program and
 regulatory process will continue as more lease sales are held and more offshore wind lessees are
  required to comply with these provisions.

 BOEM is in the process of developing a list of potential regulatory changes and anticipates that
 updating the regulations will be a multi-year, rolling effort. These regulatory developments will
 be in response to not only the OIG's observations and recommendations, but also based on the
 agency's experience with the offshore renewable energy program and input from external
 entities, including the states, the renewable energy industry, the Transportation Research Board
 of the National Academies, non-governmental organizations and other stakeholders.

 Action: BOEM will develop a three-year offshore renewable energy regulatory schedule and
 develop and promulgate regulations.




                                                                                             17
Responsible Officials:
Deanna Meyer-Pietruszka, Chief, Office of Policy, Regulations, and Analysis
Maureen Bornholdt, Chief, Office of Renewable Energy Programs

Target Date: FY 2016


Recommendation 2: Develop and implement detailed SOPs for the Program's internal
processes in order to facilitate good management practices and strong internal controls.

Response: Concur

We agree that detailed Standard Operating Procedures (SOPs) covering BOEM's internal
processes are important to the development of the offshore renewable energy program. BOEM
is taking a strategic and practical approach to evaluating and updating its current SOPs and
creating and implementing new ones.

As noted in the draft report, BOEM has made progress developing SOPs for the renewable
energy program. We believe it is most practical and beneficial for BOEM to continue to
prioritize the development of new procedures and revise existing ones most relevant to the
current issues BOEM faces, adding new SOPs as the offshore renewable energy program
continues to evolve and the agency gains experience with processes and procedures for which
there has not yet been a need. Therefore, we agree with the draft report regarding the policies it
notes as requiring SOPs, including auction policies, bonding policies, and qualifications
policies. Additionally, BOEM would add renewable energy adjudication processes, task force
formation and management, area identification, and non-competitive lease issuance to the list of
priorities for SOP development. Accordingly, BOEM is developing a schedule for creating,
distributing, reviewing, and updating SOPs.

 At the current time, no offshore renewable energy generating facilities have been built pursuant
 to BOEM-issued renewable energy leases; no operating fees have been received; and no major
 structures have required inspection. However, in anticipation of expected progress in offshore
 renewable energy development, BOEM is planning for these future activities so that it will be
 prepared to execute them at the appropriate time and will accordingly develop detailed SOPs
 tailored to the specifics of the work they will address. More specific SOPs will be developed as
 the details of actual facilities become apparent.

 To the extent appropriate, BOEM will draw from SOPs currently in use in its oil and gas
 programs that are transferable to the offshore renewable energy program. For example, the
 Office of Renewable Energy Programs refers to bonding and financial assurance procedures and
 policies established for the oil and gas program as appropriate. Additionally, BOEM has both
 internal and external sources ofN ational Environmental Policy Act (NEP A) guidance that it
 adopts and relies on. Internal sources include standard operating procedures and internal
 guidance to comply with the requirements of NEP A and other environmental laws, regulations,
 and executive orders while the Bureau fulfill its mission of energy development on the
 OCS. The renewable energy program participates in the development, review , and revision of



                                                                                           18
BOEM's environmental guidance through its membership on BOEM's NEP A Team. More
information about BOEM's environmental assessment program can be found
at: http://www.boem.gov/Environmental-Stewardship/Environmental-
Assessment/NEPA/Index.aspx. External sources include DOl procedures, which are applicable
to all bureaus, including BOEM's offshore renewable energy program, such as the DOl
Departmental Manual Part 516 and the DOl Office of Environmental Policy and Compliance
Environmental Series Memoranda (see http://www.doi.gov/pmb/oepc/environmental-
rnemoranda-series. cfm).

Action: Develop SOP Schedule

Responsible Official: Maureen Bornholdt, Chief, Office of Renewable Energy Programs

Target Date: FY 2014


Recommendation 4: Expedite the transfer of the inspection and enforcement responsibilities
for offshore renewable energy from BOEM to BSEE to ensure an appropriate separation of
duties in the development of inspection protocols and plans for monitoring industry activities
and regulatory compliance.

Response: Partially Concur

The OlG report describes the intended division of bureau responsibilities following the October
2011 reorganization that resulted in the formation of two distinct bureaus, BOEM and the Bureau
of Safety and Environmental Enforcement (BSEE). The report also notes that although BOEM
currently is responsible for the inspection and enforcement of offshore renewable energy
facilities, such duties would be transferred to BSEE at a future time.

The OlG recommends that Assistant Secretary-Land and Minerals Management (ASLM)
"expedite" the transfer of responsibilities. ASLM expects that the offshore wind industry will
progress sufficiently so that the transfer would occur earlier than the 2020 projection of the
reorganization study. However, ASLM believes that the transfer should be properly planned and
budgeted for in the context of the pace of offshore renewable energy facility development and
that transferring these responsibilities prematurely would be inefficient and ineffective. For this
reason, ASLM partially concurs with Recommendation 4.

The Department decided to initially house all of the offshore renewable energy functions within
BOEM to allow the early stages of this program to grow in a coherent, efficient and
comprehensive manner. The Office of Renewable Energy Programs (OREP) in BOEM was
designed to be responsible for formulating national strategy and developing policies and
practices, as well as managing offshore renewable energy activities. This role would enhance the
Department's ability to facilitate efficient and environmentally sound renewable energy
development, best advance the Department's mission and strategic goals, and be responsive to
the realities of an emerging industry and regulatory regime. This decision was made to ensure
that sufficient focus and resources be given to the fledging offshore renewable energy program.


                                                                                              19
The McKinsey Report and the Reorganization

From the time that the plan for Bureau of Ocean Energy Management, Regulation, and
Enforcement's (BOEMRE) division into BOEM and BSEE was first released, this blueprint has
always included a transfer of renewable energy inspection and enforcement duties after a
"critical mass" of projects had been developed. The foundational policy was that the inspection
and enforcement program would be created in BOEM, and at such a time as the workload
warranted, the responsibilities would be transferred to BSEE. This strategy was based on (1)
recognition that the offshore renewable energy industry is nascent and will develop gradually
over time; (2) recognition that, similarly, DOl's regulatory regime related to offshore renewable
energy will develop in parallel as areas are leased, surveys environmental reviews are conducted,
and projects are designed; and (3) concern that limited budgetary and staffing resources be
devoted in an efficient and useful manner.

To help with the issues surrounding the reorganization ofMMS, the Department engaged
McKinsey and Company, a respected management consultant. After examining the question of
when to transfer renewable energy permitting and inspection activities to BSEE, McKinsey
recommended:

        Engineers and BSEE functions should be kept in BOEM while SOPs
        are created and the industry "standardizes"

            •   Keeping these functions within BOEM will allow for efficient
                and effective decision-making at this early policy stage ...

            •   Once several projects have gone through the end-to-end
                (application to lease to construction) process, the permitting
                and inspections functions should move to BSEE

 For example, a challenge that the renewable energy inspection and enforcement program will
 face, whether developed in BOEM or BSEE, is the fact that there are few, if any, engineers with
 offshore renewable energy experience available in the United States. Therefore, DOl is taking a
 strategic approach to hiring and developing these personnel. As BOEM hires engineers to work
 in the renewable energy program, they join a staff of renewable energy specialists and start work
 reviewing plans, proposing improvements to regulations, contributing to the development of
 standards, etc. BOEM is an immersive environment where engineers can start learning about the
 structures and ocean conditions relevant to where renewable energy will be developed. Once
 there are sufficient projects under development to support a stand-alone office within BSEE,
 these engineers will be experienced with the entire offshore renewable energy program and
  familiar with the design and construction of the facilities being built offshore. At that time, it
  will be appropriate to transfer the functions and associated staff to BSEE.

  While McKinsey predicted there would not be a sufficient number of projects before 2020,
  ASLM anticipates that the appropriate time to transfer inspections responsibilities from BOEM
  to BSEE likely will occur sooner than that. However, the precise date for the transfer cannot be




                                                                                            20
established at this time, as it will depend on how quickly companies assess their new leases and
start to develop plans for construction and operation of projects.

Coordination with BSEE before a Transfer

Currently, OREP has civil and structural Engineers who, among other things, review lessees'
renewable energy applications and plans for compliance with the regulatory requirements at 30
CFR 5 85; provide oversight for engineering, safety, and inspection elements of the interim
policy, research and commercial leases; evaluate renewable energy standards and develop
appropriate regulations; serve as technical experts for BOEM-sponsored research covering
offshore renewable energy technology; and, coordinate with industry, lessees, standard-setting
organizations, BSEE, and other relevant Federal agencies. OREP will be hiring additional staff
to augment existing engineering and scientific expertise to accomplish these tasks. OREP
engages its BSEE partners on offshore renewable energy work associated with engineering
requirements; decommissioning and bonding issues; review of Facility Design and Fabrication
and Installations Reports; and development of safety management systems, inspection, and audit
processes. This partnership with BSEE is intended to ensure consistent and transparent
knowledge development and transfer, with the goal of facilitating smooth program transition
when these functions, employees and associatedresources are transferred to BSEE.

Until it is appropriate to complete the transfer, BOEM will continue to work with BSEE to
ensure that BSEE is well-informed regarding the program's activities. BOEM's current
coordination activities are substantial. BSEE is a member of BOEM's intergovernmental task
forces, which will ensure that BSEE has an opportunity to stay current on BOEM's area
identification and leasing activities in each state. BOEM funds studies in BSEE's Emerging
Technologies program, formerly the Technology Assessment and Research Program (for
example see the following list of renewable energy studies: htto ://www.bsee. r!:ov/Research-and-
Traini ng/Renewable-Enemv-Research (REnR).aspx). BSEE has participated in the development
ofBOEM's guidance, including, Guidelines for Providing Geological and Geophysical,
Hazards, and Archaeological Information Pursuant to 30 CFR Part 585. BSEE is expected to
participate regularly as a cooperating agency in the preparation of assessments and studies under
NEPA. BOEM has also consulted with BSEE on the hiring of engineers for the program.

To formalize this coordination, a planned Memorandum of Understanding (MOU) among
BOEM, BSEE and ONNR will include a section specific to renewable energy. The provisions of
this MOU will be designed to ensure BSEE will be well prepared for the transition of permitting
and inspection functions from BOEM to BSEE.

 Action: Complete MOU among BOEM, BSEE and ONNR

 Responsible Officials:
 BOEM: Walter D. Cruickshank, Deputy Director
 BSEE: Margaret Schneider, Deputy Director

 Target Date: FY 2014, Q2 (March 31 , 2014)




                                                                                              21
Appendix 3: The Office of Natural
Resources Revenue’s Response
The Office of Natural Resources Revenue’s response follows on page 23.




                                                                         22
               United States Department of the Interior
                       OFFICE OF NATURAL RESOURCES REVENUE
                                     Washington, DC 20240



                                         AUG 1 6 2013
Memorandum

To:      Assistant Inspector General for Audits, Inspections, and Evaluations

From:     Gregory J. Gould
          Director

Subject: Response to Draft Evaluation Report on Offshore Renewable Energy Program
         (CR-EV-BOEM-0001-2012)

Thank you for the opportunity to review your Draft Evaluation Report entitled, US Department
of the Interior 's Offshore Renewable Energy Program (CR-EV-BOEM-0001-2012). This
response addresses Recommendation 3, which is directed to the Office of Natural Resources
Revenue (ONRR). The Bureau of Ocean Energy Management (BOEM) and the Assistant
Secretary - Land and Minerals Management will respond in a separate memo to
recommendations directed to those organizations.

We concur with Recommendation 3 and ONRR has already initiated corrective actions to
address the recommendation. Attached is our response to Recommendation 3 identifying the
actions taken or planned, target dates, and the official responsible the recommendation. If you
have any questions about this response, please contact Gwenna Zacchini, ONRR Audit Liaison
Officer at (303) 231-3513.

Attachment




                                                                                              23
                                                                                   Attachment



Response to Recommendation 3 for the Office of Natural Resources Revenue (ONRR) in the
Department of the Interior (DOl) Office oflnspector General draft report entitled, US.
Department ofthe Interior's Offshore Renewable Energy Program (CR-EV-BOEM, 0001-2012)



Recommendation 3: Develop and implement detailed policies and procedures for its processes
and responsibilities related to offshore renewable energy projects, including its coordination
with BOEM and the receipt and review ofrental payments and operating fees.

Response: Concur.

ONRR, BOEM and BSEE are finalizing a Renewable Energy Division of Responsibilities
(DOR) attachment to the ONRR, BOEM, and BSEE,Memorandum of Understanding. This is a
high-level document that will identify responsibilities of each organization. The Solicitor's
Office reviewed the document and BOEM, BSEE and ONRR Deputy Directors will sign the
document when finalized.

ONRR and BOEM continually collaborate to define processes and necessary communications as
the Renewable Energy Program evolves. ONRR will refine the established processes and
document detailed procedures for Renewable Energy projects, which will cover coordination
with BOEM and the receipt and review of rental payments and operating fees.

Responsible Official: Gregory J. Gould, Director, ONRR

Target Date: Second Quarter FY 2014




                                                                                            24
Appendix 4: Status of
Recommendations
In the Bureau of Ocean Energy Management’s (BOEM) and the Acting Assistant
Secretary for Land and Minerals Management’s response, BOEM concurred with
recommendations 1 and 2 and the Acting Assistant Secretary partially concurred
with recommendation 4 (see Appendix 2). We modified recommendation 4 and
request that the Assistant Secretary for Policy, Management and Budget respond
to our revised recommendation. In its response, the Office of Natural Resources
Revenue concurred with recommendation 3 (see Appendix 3).

    Recommendations                   Status               Action Required

                                                       We will refer these
                                                       recommendations to the
                                 Resolved but not      Assistant Secretary for
            1, 2, 3
                                  implemented          Policy, Management and
                                                       Budget for
                                                       implementation tracking.


                                                       We modified our
                                                       recommendation and
                                                       request that the Assistant
              4                     Unresolved         Secretary for Policy,
                                                       Management and Budget
                                                       respond to our revised
                                                       recommendation.




                                                                             25
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doi.gov/oig/index.cfm

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
